OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
NATIONAL CAPACITY
DEVELOPMENT PROGRAM
AUDIT REPORT NO. E-267-09-001-P
November 25, 2008




BAGHDAD, IRAQ

     Office of Inspector General


     November 25, 2008

     MEMORANDUM

     TO:         	          Mission Director, USAID/Iraq, Christopher D. Crowley

     FROM: 	                Director, Office of Inspector General/Iraq, Gerard M. Custer /s/

     SUBJECT:	              Audit of USAID/Iraq’s National Capacity Development Program
                            (Report No. E-267-09-001-P)

     This memorandum transmits our final report on the subject audit. The report contains
     four recommendations for your action. We have considered management’s comments
     on the draft report and have incorporated them into the final report, as appropriate. They
     have been included in their entirety in appendix II.

     Based on management’s comments, we consider that a management decision has been
     reached on all four recommendations. Please provide evidence of final action on each
     recommendation to the Audit Performance and Compliance Division upon completion.

     I want to express my sincere appreciation for the cooperation and courtesies extended
     to my staff during this audit.




Office of Inspector General/ Iraq
Hammurabi Bldg.
USAID Compound
International Zone
Baghdad, Iraq
CONTENTS 

Summary of Results ....................................................................................................... 4 


Background ..................................................................................................................... 5 


Audit Objective .................................................................................................................. 7 


Audit Findings ................................................................................................................ 8 


     Mission Needs Outcome Indicators that Reflect 

     the Intended Results of the Program ........................................................................ 9 


     Ministry of Oil Needs a Capacity Development

     Plan ......................................................................................................................11 


     Better Methodology is Needed to Measure 

     Training Indicators ................................................................................................. 13 


     Better Performance Measures are Needed for 

     the Scholarship Program ......................................................................................... 15 


Evaluation of Management Comments ....................................................................... 18 


Appendix I – Scope and Methodology ........................................................................ 19 


Appendix II – Management Comments ....................................................................... 21 


Appendix III – Results Matrix for Year 1 

Accomplishments ......................................................................................................... 25 





                                                                                                                                  3
SUMMARY OF RESULTS 

The emerging Government of Iraq inherited a challenging governance apparatus
characterized by weak and disorganized institutions lacking in transparency, accountability
and inter-ministerial coordination. This resulted in weak service delivery and policy making
capabilities. In order to assist the Iraqi Government in improving essential services to its
constituents, USAID/Iraq awarded a two-year level of effort contract, with an additional
option year, to implement the National Capacity Development Program (page 5).

The Office of Inspector General in Iraq conducted this audit to determine whether
USAID/Iraq’s National Capacity Development Program (the Program) was achieving
intended results and to determine the impact of those results (page 7). Started in July
2006, this $339.5 million program was designed to assist the Government of Iraq
improve its operations, management, and policy formulation, thereby improving the
effectiveness and legitimacy of its national-level institutions (page 5).

We found the Program is achieving its intended results in 14 of its 20 results indicators.
Two other indicators exceeded targets, but due to the quality of the data provided, we
were unable to determinately rely on the figures. Four of the results indicators were not
met (pages 25). We could not determine the impact as there are no outcome indicators
for measuring the achievement of the Program’s overall goal to improve delivery of core
services (page 9).

We found that the Ministry of Oil needed a capacity development plan to better focus
on the achievement of the program’s long-term objective for strengthening the ministry’s
core administrative functions (page 11). Additionally, we determined that the response
rates of post-training surveys from training participants were too low to ensure the
validity of the survey results. USAID could improve the validity of the results in
measuring the effectiveness of training activities by increasing these response rates
(page 13).

We also determined that USAID could better demonstrate program results by including a
measure for the number of study abroad scholarships utilized. Currently, there is one
performance indicator which measures scholarships awarded; however, not all
scholarships awarded result in individuals studying abroad (page 15).

We made the following recommendations to USAID/Iraq to improve its management of
the Program: the inclusion of outcome indicators in the performance management plan
that measure improvement of Iraqi ministries to delivery core services (page 11); require
the contractor to work with the Ministry of Oil to draft a capacity development plan (page
13); the implementation of a plan to increase the response rate for surveys so as to
provide valid results in measuring outcome measures (page 15); and adding an output
indicator to measure the number of scholarships utilized (page 17).

Management comments will be included in their entirety in appendix II.




                                                                                          4
BACKGROUND 

Iraq's legislative elections on December 15, 2005 led to the formation of the first permanent
elected government since the fall of Saddam Hussein. The United States Government and
other donors sought to help Iraqis bridge their ethnic, political, and religious differences and
acquire the necessary skills to form an effective, responsible government that serves the
entire country and is able to provide essential services to its citizens.

The emerging Government of Iraq inherited a challenging governance apparatus
characterized by weak and disorganized institutions lacking in transparency and
accountability. According to USAID/Iraq, the system lacked inter-ministerial coordination,
effective public outreach and communications, and was characterized by an unmotivated
and poorly managed civil service. This resulted in weak service delivery and policy making
capabilities.

In order to assist the Government in improving essential services to its constituents,
USAID/Iraq awarded a 2-year level of effort contract to implement the National Capacity
Development Program (Program). The Program, which began on July 31, 2006,
exercised an option year extending the Program’s end date to July 31, 2009. The Program
was originally allocated approximately $165 million; this allocation was subsequently
increased to $209.5 million in September 2007. Subsequent to completion of field work the
Program received an additional allocation increasing the awarded amount to $339.5 million
and the program scheduled end date was extended to January 31, 2011. As of September
25, 2008 $269.3 million had been obligated and $116.5 million disbursed.

The objective of the Program is to assist the Government of Iraq in improving its
operations, management, and policy formulation, thereby increasing the effectiveness
and legitimacy of its national-level institutions. USAID further clarified the overall goal of
the Program as: “Build the Capacity of Key Iraqi Ministries to Deliver Core Services”.
The Program, implemented by Management Systems International, is under the direction of
the USAID/Iraq Capacity Building Office. In addition, USAID Provincial Reconstruction
Team representatives have assisted some aspects of the program in the cities of Mosul
and Basrah.

The Program employs three actions to achieve its objective: 1) develop the capacity of the
National Center for Consultancy and Management Development1, 2) provide training in
core public administration functions to Government of Iraq civil servants, and 3) provide
mentoring to selected key ministries2.

The first phase of the Program focused on developing training modules in the core areas,
working to build the capacity of the National Center for Consultancy and Management
Development; opening training centers in Erbil, Basrah, and Mosul; and the training of



1
  The National Center for Consultancy and Management Development has served as Iraq’s public
administration training center for over 30 years.
2
  Key ministries identified in the contract include the ministries of Oil, Electricity, Finance,
Municipalities and Public Works, Water Resources, Planning, Justice, Agriculture, Health, and
Education.


                                                                                              5
trainers. The Program is now considered in Phase II and focuses on the mentoring of
government ministries.

Phase II of the Program was impacted by two significant events. The first event occurred
in January 2007 when the U.S. President announced his new strategy for Iraq -
"The New Way Forward. The new strategy tasked the coalition to “Refocus efforts to help
Iraqis build capacity in areas vital to success of the government (e.g. budget execution and
the operation of key ministries).” As a consequence, USAID directed the contractor to
recruit an additional 26 expert advisors to expand the number of advisors working directly
with key ministries in order to achieve more rapid improvement in those ministries’
improvement. The second event, which occurred in January 2008, was the result of an
“energy surge” initiated by a joint effort of the US Embassy and the Multi-National Force-
Iraq in an effort to assist in crafting an energy strategy for Iraq. As a result of this energy
surge, the contractor added 18 energy experts. This became the Tatweer energy group
which focuses directly on the Ministries of Electricity and Oil and assists the energy fusion
cell3 in meeting their mandate.

The Program is service oriented and labor intensive--relying heavily on fluent Arabic
speakers for all aspects of its operations. Success is highly dependent on the ability of its
advisors to win the trust of key ministry officials so the respective ministries will accept and
utilize the services offered by the Program. Recruiting proved challenging for various
reasons and to date no advisors have been placed at two key ministries.4

In addition, the Program faces security challenges which impede the ability of both the
USAID and contractor expatriate staff from visiting key ministries and institutions.
Nonetheless through various means, the contractor has generally been able to establish
working relationships with most ministries and institutions, such as through the use of
locally hired staff, telephones and neutral locations for meetings.

USAID designs its programs to be in compliance with the Government Performance
and Results Act, which requires federal agencies to define program goals and
annually measure performance toward their achievement.               USAID’s principal
interagency coordination tool at the country level for implementing this methodology is
the U.S. Embassy Mission Performance Plan (MPP). The MPP is the authoritative
integrated interagency country strategy document prepared by the U.S. Embassy
Country Team and approved by the Ambassador or Chief of Mission. MPP goals are
based on the national interests and strategic goals contained in the agency level
strategic plan. The MPP is both a planning and reporting document.

At the program level, performance management plans are established to develop systems
to measure progress towards intended objectives. According to ADS 203.3.3.1, to be
considered complete, a performance management plan must define at least one


3
  The energy fusion cell is made up of personnel from the U.S. Embassy, the Multi-National Force-
Iraq, and Iraq's oil and electricity ministries. The cell is tasked with crafting an energy strategy for
Iraq, which should include "identifying rebuilding priorities, resource needs, stakeholder roles and
responsibilities, and performance measures and milestones”.
4
  Tatweer does not have advisors for two of the original key ministries. No advisor was found for
the Ministry of Education and the USAID contractor was unable to establish a relationship with the
Ministry of Finance.


                                                                                                      6
performance indicator that will be used to measure progress towards the Strategic
Objective5, and at least one performance indicator to measure progress.


AUDIT OBJECTIVE
As part of its fiscal year 2008 annual audit plan, the Office of Inspector General in Iraq
conducted this audit to answer the following question:

    •	 Is USAID/Iraq's National Capacity Development Program achieving intended
       results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




5
 Strategic Objective - The most ambitious result that a USAID Operating Unit, along with its
partners, can materially affect, and for which it is willing to be held accountable.


                                                                                               7
AUDIT FINDINGS

We found that USAID/Iraq’s National Capacity Development Program (the Program), is
achieving its intended results for 14 of its 20 results indicators (see appendix III). The
Program’s Annual Report for the first year shows that 16 of 20 target goals were
achieved, but due to the quality of the data provided, we were unable to determinately
rely on the figures for 2 of the indicators. The remaining four results indicators were not
met. We could not determine the impact of those results as there are no outcome
indicators for measuring achievement of the overall program goal to build the capacity of
key Iraqi ministries to deliver core services.

The Program’s training efforts are becoming increasingly successful as it continues to
gain momentum. In addition to remaining on track to meet its training objectives, more
of the training is occurring within the ministries themselves – not just through the
Program contractor’s own classrooms. The Program assists the Government of Iraq in
expanding its capacity to provide and utilize public administration training for its
personnel. As of July 7, 2008, 43 percent of trainees attended courses sponsored by
Government of Iraq ministries using trainers trained by the Program’s Training of
Trainers endeavor, which indicates a trend toward sustainable training efforts into the
future.

With ministries taking over more of the role of training delivery, the Program has shifted
its focus from training efforts to institutional development and systems change through
technical assistance in fields such as procurement, budgeting, and project management.
This focus helps increase the Government of Iraq’s ability to execute its capital projects
budget, which should ultimately impact its ability to provide better services to its citizens.

Although USAID/Iraq’s capacity development program has demonstrated some
successful results, opportunities exist for the mission to improve its monitoring of the
Program. For example, the measurement of the impact of results needs to more closely
match its intended results and outcome measures, and a capacity develop plan could
be developed for a key ministry to help focus capacity development efforts.
Methodologies should also be strengthened for measuring certain indicators.
Moreover, opportunities exist for USAID/Iraq to improve its management of the program
by adding and/or revising performance indicators.

USAID guidance states that development results goals should reach high and be based
on USAID’s ability to influence, organize, and support others around commonly shared
goals and probability of success. Despite this, the Program did not have outcome
indicators to measure the achievement of the stated overall goal of the program. USAID
officials said this was because the overall goal is related to the strategic objective and
measured at the mission level rather than the program level. However, the audit found
the program goal is not being measured at any level. With no results indicator reflecting
the overall goal of the Program, there is no way to determine if the desired impact is
being achieved.

In addition, we found that USAID could better encourage long-term capacity
development at one key ministry by ensuring the program’s core initiatives for
developing capacity development plans and training are applied. According to USAID,


                                                                                            8
capacity development plans represent a critical indicator for showing improvement in the
ministries’ capacity to strategically assess and plan for improved performance. Currently
no capacity development plan for the Ministry of Oil has been drafted. The lack of a
capacity development plan for the Ministry of Oil weakens the prospects for achieving
the program’s objective for a long-term impact for strengthening the capacity of the
ministry.

As noted earlier, providing training in core public administration functions to Government of
Iraq civil servants is a key initiative of the Program. We found that USAID could improve
the validity of results for training effectiveness measures by increasing the response rate
of post-training surveys. The response rates of two post-training surveys were too low to
ensure that valid conclusions could be made from the survey results. Without reliable
survey results, USAID/Iraq cannot determine whether or not program sponsored training
is effective and having the desired impact.

USAID could also improve reporting on Program progress by including a measure for the
number of study abroad scholarships utilized by Iraqi citizens. USAID/Iraq currently
reports on the number of scholarships awarded. However, not all awarded scholarships
actually result in Iraqi’s studying abroad. The purpose of the scholarship program is to
send Iraqis abroad to obtain a master’s degree or certificate in public administration;
however, this goal is not reflected in the performance measures. USAID criteria states
that performance indicators should measure as closely as possible the result that is
intended to be measured.

The following narrative provides additional details on the findings discussed above and
includes recommendations for USAID/Iraq to address the identified findings.


Mission Needs Outcome
Indicators that Reflect the
Intended Result of the Program

  Summary: USAID guidance states that development results goals should reach
  high and be based on USAID’s ability to influence, organize, and support others
  around commonly shared goals and probability of success. Despite this, the
  Program did not have outcome indicators to measure the achievement of the stated
  overall goal of the Program to build the capacity of key Iraqi ministries to deliver
  core services. According to USAID officials, this was because the Program is but
  one component for meeting the Mission’s Strategic Objective 10: number of
  national government institutions effectively delivering their services. USAID
  officials further stated that the goal for effective delivery of services is measured at
  the mission level rather than the program level. However, we found the
  program/strategic goal for effective delivery of services is not being measured at
  any level. With no results indicator reflecting the overall goal of the Program, there
  is no way to determine if the desired impact is being achieved.

USAID ADS 200.3.2.1 states that managing for results is one of USAID’s core
values. Managing for results means seeking to define and organize the work around
the desired end result.


                                                                                             9
Regarding Accountability for results ADS 200.3.2.1 states that:

    In the development work that is the core of our programs, we almost never have
    total control over the results we seek to accomplish. Indeed, development
    results that would be within our control are not likely to represent sustainable
    development. Rather than limit ourselves to mundane, safe, but not useful
    results, our goal is to select objectives that reach high and inspire others but that
    are also within our manageable interests. The concept of manageable interest
    recognizes that achievement of results requires joint action on the part of many
    other actors such as host country governments, institutions, other donors, civil
    society, and the private sector. When an objective is within our manageable
    interest, it means that we have reason to believe that: 1) Our ability to influence,
    organize, and support others around commonly shared goals can lead to the
    achievement of desired results; and 2) The probability of success is high
    enough to warrant expending program and staff resources.

In addition, ADS 203.3.4 states that performance indicators may measure
performance at any level of a results framework (strategic objective level or
intermediate results level).

According to the Program’s performance management plan, the overall goal of the
Program is to “Build the Capacity of Key Iraqi Ministries to Deliver Core Services.”
Although part of the stated overall goal of the Program is delivery of core services, there
are no outcome indicators that measure this impact. USAID/Iraq representatives stated
that the Program’s focus is on building capacity in core public administration functions
which would enable government institutions to improve the delivery of services.
However, they went on to say that improvement in the delivery of services is not a direct
goal of the Program.

USAID officials further stated that the indicator for improved delivery of services is
included in the overall mission performance management plan at the strategic objective
level, while the Program measures results at a more intermediate level. According to
USAID/Iraq Program Office officials, the related strategic objective indicator, at the
mission level, measures the level of the ministry usage of the financial management
information system6. The indicator does not track or measure improvement in the
delivery of core services.

USAID officials also pointed out that USAID is one of many actors involved in Iraqi
national government capacity development. According to a Government Accountability
Office’s October 2007 report on Stabilizing and Rebuilding Iraq:

    As of May 2007, 6 U.S. agencies were implementing about 53 projects at
    individual ministries and other national Iraqi agencies. State, USAID, and DOD
    are leading the largest number of programs with funding allocations totaling
    about $169 million at individual ministries and other national Iraqi government
    agencies. As of May 1, 2007, about 384 U.S. military, government, and


6
 The financial management information system is a component of USAID/Iraq’s economic
governance program.


                                                                                            10
   contractor staff from these 3 agencies were working with the ministries and were
   implementing or completing capacity development projects.

Nevertheless, as noted previously, ADS 200.3.2.1 states that the involvement of other
players is the norm and that USAID should determine if they can have a favorable
influence in achieving commonly shared goals, and if the probability of success warrants
spending resources.

As a result of the expansion of the Program, USAID has proposed new outcome
measures which would bring it closer to measuring the overall goal of the Program.
These proposed indicators will measure capital project approval and implementation rate
which in effect measures the improvement of the Government of Iraq’s capital asset
budget execution. Increases in the execution of the capital assets budget would in
theory, lead to improvement in the delivery of core services.

Nonetheless, based on the Program’s stated overall goal to “Build the Capacity of Key
Iraqi Ministries to Deliver Core Services,” we conclude that the ultimate intended
outcome of the Program is to improve the delivery of core services. This goal is not
addressed by either the Program’s performance management plan or the mission’s
performance management plan. Without a results indicator for measuring the Program’s
overall goal, there is no way to determine if intended results are being achieved by the
mission. In order to ensure that USAID tracks and measures the overall goal of the
Program, we make the following recommendation:

   Recommendation No. 1: We recommend that USAID/Iraq include outcome

   indicators in the National Capacity Development Program’s performance 

   management plan that measure improvement in the Iraqi ministries ability to

   deliver core services.



Ministry of Oil Needs a Capacity
Development Plan

  Summary: The National Capacity Development Program’s contract requires
  drafting of a capacity development plan for the Ministry of Oil. However, no
  capacity development plan has been drafted for the Ministry of Oil and, according
  to contractor officials, it will not be developed. Reasons why no plan has been
  prepared include personality clashes between the contractor’s Chief of Party and
  the senior advisor to Ministry of Oil, which led to the removal of the senior advisor
  before the plan was completed, and the contractor’s focus shifted away from long-
  term capacity development and toward short-tem fixes of the Ministry of Oil’s
  pressing problems with the formation of the energy fusion cell. The lack of a
  capacity development plan for the Ministry of Oil weakens the prospects for
  achieving the Program’s objective for a long-term impact for strengthening the
  capacity of the ministry.

The National Capacity Development Program’s (the Program) performance
management plan states the Program’s premise is the improvement of ministries’
performance in core administrative functions to deliver public services for the benefit of



                                                                                          11
Iraqi citizens. The Program approaches this goal, in part, through training activities to
improve administrative operations and working with ministries to draft capacity
development plans. USAID asserts that completion of the plans is a critical indicator for
showing improvement in the ministries’ capacity to strategically assess and plan for
improved performance.

Despite USAID’s stance on the importance of these plans, the Ministry of Oil is the only
ministry with Program advisors7 that has not developed a capacity development plan.
Initially, a senior advisor and two staff were assigned by the contractor to assist the
Ministry of Oil in developing a capacity development plan. However, the contractor’s
Chief of Party8 redirected the advisor’s efforts to other program activities and no plan has
been developed. USAID and contractor representatives stated they do not intend to
complete such a plan with the ministry.

While the Ministry of Oil receives, on average, twice the amount of resources as any of
the key ministries served, the Program has not applied its core initiatives to the ministry
in the same manner as other key ministries. For example, even though the Ministry of
Oil is a high priority ministry, its attendance of core training provided by the Program is
one of the lowest of the key ministries. According to the contract, a capacity
development plan should define the training needs of the ministry.

In January 2008, the contractor hired 18 energy experts (Tatweer9 energy group) at the
direction of USAID, which was based on General Petraeus’ initiative to match the military
surge in Iraq with a civilian surge. This surge resulted in the formation of the “energy
fusion cell” (EFC), made up of the U.S. Embassy, the Multi-National Force-Iraq, and
Iraq's oil and electricity ministries, whose mission was to craft an energy strategy for
Iraq--as previously noted on page 6. The new Tatweer energy group, which works with
both the Ministry of Oil and the Ministry of Electricity, also coordinates with the EFC and
incorporates EFC goals whenever they are deemed appropriate. However, the EFC
and the Program have different goals -- EFC focuses on short-term goals and the
Program’s goal is long-term capacity development. According to one USAID official,
bringing the two goals together for short-term problem solving and long-term
development is not easy.

Representatives from the Tatweer energy group stated that the approach for working
with the Ministry of Oil is different from the work with other ministries. Instead of training,
they focus on problem solving workshops to address the ministry’s most pressing
problems. For instance one workshop resulted in solving a problem regarding the ability
to use gas extraction equipment that had lain idle for years.

USAID and the contractor have agreed on a work plan for the Ministry of Oil but it has
not been officially approved by the Ministry of Oil. The plan includes metrics for
completing a capacity development plan but as yet, none have been completed, and as
stated previously, according to USAID and Tatweer officials, they no longer plan to
complete one.

7
   Two key ministries, the Ministry Education and Ministry of Finance, do not have National
Capacity Development Program advisors assigned and thus do not have capacity development
plans.
8
  This Chief of Party subsequently left the program in July 2008.
9
  The program is locally known as “Tatweer” - the Arabic name for Development.


                                                                                            12
The lack of focus towards the program’s core initiatives of drafting capacity development
plans and training for the Ministry of Oil could weaken the prospects for achieving the
program’s long term objective for strengthening the ministry’s core administrative
functions. Therefore, we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Iraq direct the National
   Capacity Development Program’s contractor to work with the Ministry of Oil to
   draft a capacity development plan.


Better Methodology is Needed
to Measure Training Indicators

  Summary: Two separate post-training surveys were completed to address
  indicators under the Program’s results framework. However, the response rates of
  the surveys were not high enough to ensure the validity of the results based on
  guidance from the Government Accountability Office. In addition, the majority of
  the responses were weighted toward only one aspect of the capacity development
  training. The survey results response rates were too low to project the results to
  the universe of trainees; consequently, the survey results are unreliable. Having
  unreliable outcome results makes it difficult for program managers and other
  stakeholders to assess the program’s progress and to make necessary
  adjustments to assure achievement of higher-level goals.

To help improve the core functions of national level institutions, training is one of the
main focuses of the USAID/Iraq’s National Capacity Development Program. A generally
noted concern, by both USAID officials and the Program’s contractors, is that in the
beginning of the ministerial training efforts, Iraqi institutions were indiscriminate in
sending employees to training courses. This raised the question of whether effective
training was being performed for the appropriate individuals.

As such, the effectiveness of the Program’s training efforts is measured by two outcome
indicators: (1) the percentage of former trainees reporting that they make use of new
training skills, and (2) the percentage of former trainees reporting that the situation
regarding their operational or training area is improving in their unit/ministry.

Two separate post-training surveys were completed to collect feedback for the two
outcome indicators. The Program’s performance management plan states that the
surveys of trainees will use statistical sampling methodology. Specifically, it states that:

   Data for these two indicators will come from the rolling survey of trainees several
   months after their training. Trainees will be selected for the survey from a random
   sample of trainees who completed their training at least several months prior to
   the survey. This survey will be implemented monthly, capturing a rolling cohort of
   training graduates. The estimated monthly sample will be about 300, which
   should be sufficient for the results to achieve a confidence level of 95% and an
   error rate of +/- 5%.




                                                                                         13
According to the Government Accountability Office’s Program Evaluation and
Methodology Division Report No. 10.1.7, in order to make plausible generalizations the
effective response rate of a survey should be at least 75 percent for each variable
measure. We found that the response rate for the training surveys did not meet this 75
percent criterion and, consequently, the results may not be suitable in representing the
level of effectiveness the indicators were designed to measure.

These surveys, conducted about four months apart, obtained response rates of 37
percent and 61 percent respectively, or 49 percent when combined. In addition, 72
percent of the responses came from those who attended the fiscal management course,
resulting in a reply weighted toward only one aspect of the ministries’ capacity
development training.

Trainees were solicited for feedback by mail or in person during the first survey, and
collected together at the contractor’s training center to answer the questionnaire during
the second survey. USAID stated that the low response rate during the first round
survey reflected a precipitous deterioration of security in Baghdad and throughout Iraq.
The second round of the survey reflected the fact that some participants may not have
participated in the survey because it can take up to a day of their time in travel to the
training center, the survey fell on a day when their minister had called them to a meeting,
or participants had other official matters to attend to, etc.

As USAID/Iraq has designed the outcomes measures using statistical methodology, they
should take into account the impact of the non-response rate on the validity of the survey
results. The Government Accountability Office states that, without increasing the
response rate or satisfying themselves that non-respondents would have answered in
ways similar to respondents (or that the differences would have been inconsequential),
evaluators would not be entitled to draw inferential conclusions about the population. If
they knew the views of the non-respondents, their overall description of the population
might be quite different. They would be limited, therefore, to descriptive statistics about
the percent who responded, and that information might not be useful for answering a
policy-relevant question.

The Government Accountability Office further states that all measurements have some
degree of error. While evaluators can and should take steps to reduce error, subject to
resource constraints, some error will always remain. The question that must be
addressed is whether the level of error present threatens what are otherwise the
conclusions from the study. The basic rule is to be forthright about the nature of the
evidence.

In order to improve the validity of the outcome measures, USAID/Iraq could have
considered taking additional steps for increasing the response rate, such as conducting
follow-ups to the surveys when the response rate is low. Other options include adding
incentives, such as small gifts, or explaining the importance of obtaining the data. If
officials do not choose to spend more time and resources towards increasing the
response rate they should, at a minimum, disclose that the results of the survey
represent only the portion of individuals that responded to the survey and does not
necessarily represent the sample or population of individuals receiving training.

Response rates to surveys used for measuring the effectiveness of program training
activities are too low to ensure the validity of the survey results. With unreliable survey


                                                                                        14
results, USAID/Iraq cannot accurately determine the impact of the Program’s training
activity on increasing the administrative function in the ministries as intended by the
Program, which is pertinent in demonstrating improved capacity of Iraq’s national
government institutions. Consequently, we are making the following recommendation:

       Recommendation No. 3: We recommend that USAID/Iraq implement a
       plan to increase the response rate for surveys so as to provide valid
       results in measuring outcome measures.


Better Performance Measures
are Needed for the Scholarship
Program

  Summary: USAID/Iraq currently reports on the number of scholarships awarded.
  However, not all awarded scholarships actually result in Iraqi’s studying abroad.
  USAID officials never meant the scholarship indicator to measure the number of
  Iraqis that would actually attend universities abroad but instead intended the
  indicator to reflect scholarships awarded. The purpose of the scholarship program
  is to send Iraqis abroad to obtain a master’s degree or certificate in public
  administration, however, this goal is not reflected in the performance measures.
  USAID criteria states that performance indicators should measure as closely as
  possible the result that is intended to be measured. USAID could improve reporting
  on Program progress by including a measure for the number of study abroad
  scholarships utilized by Iraqi citizens.

To support the long-term transformation of Iraq’s public administration capability, the
Program’s contract calls for at least 50 Iraqis to be sent abroad to obtain a master’s
degree or certificate in public administration, public policy, and other related fields. To
address this established requirement, the Program’s performance management plan
sets a goal to award 175 post graduate scholarships over 2 years. Although USAID
reported that it attained this goal by awarding 180 scholarships, not all of the awarded
scholarships resulted in Iraqis attending universities abroad. Of the 180 scholarships
awarded, only 54 Iraqis are currently attending graduate courses outside Iraq.

The first of USAID’s seven criteria for assessing performance indicators is “Direct”.
USAID TIPS “Selecting Performance Indicators” provides this definition of directness:

   A performance indicator should measure as closely as possible the result it is
   intended to measure. It should not be pegged at a higher or lower level than the
   result being measured. For example, contraceptive prevalence rate is a direct
   measure of the result increased use of family planning methods. But number of
   service providers trained would NOT be a direct measure of the result improved
   service delivery. Just because people are trained does not necessarily mean
   they will deliver services better.

USAID officials never meant the scholarship indicator to measure the number of Iraqis
that would actually attend universities abroad but instead intended the indicator to reflect
scholarships awarded. Officials further stated that the process of awarding scholarships


                                                                                         15
provided a valuable hands-on experience for Iraqis to participate in, which demonstrated
best practices and the principals of transparency.

The Program’s contract points out that sending Iraqis abroad for obtaining master’s
degrees or other certificates will promote the Program’s goal of long-term transformation
of Iraq’s public administration capability. The demonstration of transparency is a positive
and unanticipated benefit of the scholarship awarding process; however, it is not directly
related to the Program’s intent to provide graduate level education to Iraqi participants.

The Program contained a budget for 175 Iraqi’s to study abroad. If the intended
objective is to send 175 Iraqis abroad for study, then USAID may or may not achieve this
goal. As stated earlier, there are currently 54 Iraqis studying abroad as a result of the
Program.

USAID has had three rounds of solicitation for the scholarship program. From these
solicitations, lists of principle awardees were developed, with alternates identified in the
event the preferred applicants could not, or would not, participate. Below, Table 1
demonstrates (1) the scholarship awardees during each round; (2) the dropouts during
the process; and (3) the number of awardees who have actually begun enrollment in a
graduate level program outside of Iraq.

Table 1:
                                             Round 1     Round 2      Round 3      Total
 Principle Scholarships Awarded                     5         75          101         181
 Alternate Scholarships Awarded                     0         15           40          55
    Total Potential Participants                                                      236

 Scholarships Declined (by awardee)                             27           28         55
 Scholarships Denied (RSO vetting)                                           12         12
   Total Rejected Scholarships                                                          67

 Potentially Valid Scholarships                                                        169

 Participants Actually Studying Abroad               4          50            0         54

The Program’s scholarship awardees must be vetted by the Embassy’s regional security
office to be eligible to obtain a visa for attending the universities abroad. This vetting
process has created delays that could have a strong impact on the scholarship program
and impede the ability to send 175 Iraqis to universities abroad. The Program’s
cognizant technical officer submitted the second round of scholarship vetting requests
beginning in October 2007. The third round of requests was submitted in February
2008. Despite numerous followup emails between February and June, the cognizant
technical officer did not get approval for these requests until July 3, when the regional
security office approved all but 12 of the pending scholarship awardees. However, due
to this time lag, it’s probable that many scholarship awardees will drop out. Also, there is
no time left to solicit another round of scholarships because the Program is scheduled to
end on July 31, 2009.

Per the previously mentioned USAID guidance, the scholarship program output indicator
would more directly reflect the Program’s intended result, per the contract language, if it



                                                                                         16
measured the number of Iraqis studying abroad rather than the number of scholarships
awarded. The current indicator can be misleading if the reader assumes that
scholarships awarded equate to the number of Iraqis studying abroad. Based on this,
we are making the following recommendation:

   Recommendation No. 4: We recommend that USAID/Iraq add an output
   indicator to the Program’s performance management plan to measure the
   number of graduate level scholarships utilized abroad.




                                                                                 17
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Iraq agreed with all four recommendations and
outlined proposed actions to address them. We have considered management’s
comments on the draft report and have incorporated them into the final report, as
appropriate. Based on management’s comments, we consider that a management
decision has been reached on all four recommendations.

Regarding Recommendation No. 1, the mission intends to, among other things, revise
the Tatweer Performance Management Plan to add an indicator on budget execution,
which would help measure the improved service delivery of key ministries. Accordingly,
a management decision has been reached on Recommendation No. 1. The estimated
date for final action is March 31, 2009.

Regarding Recommendation No. 2, the mission described the complications with
developing a Capacity Development Plan and detailed an alternative program -- the
Organizational Self-Assessment and Transformation Program (OSTP), as a substitute
for a capacity development plan. We feel the OSTP, which is estimated to be completed
in January 2009, will address the intent of our recommendation. Accordingly, a
management decision has been reached on Recommendation No. 2. The estimated
date for final action is March 31, 2009.

Regarding Recommendation No. 3, the mission intends to amend the Program
Performance Management Plan to provide for appropriate disclosure regarding the
validity of its survey results. Accordingly, a management decision has been reached on
Recommendation No. 3. The estimated date for final action is March 31, 2009.

Regarding Recommendation No. 4, the mission intends to include a performance
management plan indicator to reflect the number of scholarships utilized in addition to
noting that actual participants may be less than the number of scholarships awarded.
Accordingly, a management decision has been reached on Recommendation No. 4. The
estimated date for final action is March 31, 2009.

Determination for final action on all four recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC) upon submission of documentation
evidencing completion of the actions proposed by the mission.




                                                                                     18
                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.

The purpose of the audit was to determine if USAID/Iraq’s National Capacity
Development Program was achieving planned results and what has been the impact.

The National Capacity Development Program (the Program) commenced on July 31, 2006
and is scheduled to end January 31, 2011. The Program was originally allocated $165
million. That allocation was subsequently increased to $339.5 million in September 2008.
Fieldwork was performed from May 14 to August 4, 2008 in the International Zone and at
the contractor’s compounds located in the Monsour and Karrada districts of Baghdad,
Iraq.

The scope of this audit did not include activities related to anti-corruption, which
excludes approximately $4.5 million, or 2.1 percent of the Program’s funding. An audit
related specifically to that topic is scheduled for later. In conducting the audit, we
assessed certain internal controls with respect to the Program, including the following:

   •	 Quarterly and annual reports submitted by the implementing partners.
   •	 USAID/Iraq’s FY 2007 Federal Managers’ Financial Integrity Act self-assessment.
   •	 Submissions to Information Resource Management under Automated Directives
      System 548.

Methodology

To answer the audit objective, we identified specific tasks the contractor was required to
accomplish in its contract with USAID/Iraq and through the objectives set in the
performance management plan. We examined pertinent documentation such as the
contract and contract modifications, minutes from USAID/Iraq portfolio reviews,
performance management plan, implementing partners’ work plans, and implementing
partners’ performance reports, plus various other reporting deliverables and products
identified in the contract. We also interviewed USAID/Iraq’s Capacity Building Office
Director, the cognizant technical officer responsible for the Program, activity managers,
and numerous representatives from the Program’s contractor.

During our fieldwork, we reviewed ministry capacity assessments and corresponding
development plans. We reviewed the plans according to requirements acquired from the
contract, including obtaining Iraqi involvement and identifying benchmarks, outcomes,
and indicators of results. We also reviewed training modules developed to address core
ministry functions and the numbers of trainees reached with these courses. This review
included determining the timeliness of the training modules, identifying which ministry


                                                                                       19
                                                                          APPENDIX I


employees took what courses, and the trainees’ perception of the usefulness of the
courses provided.

We also performed analytical procedures on the follow-up survey questionnaires on
trained trainees’ perceptions of improved ministerial operations based on the training
they received. These included recalculating the tabulations performed by the contractor
and identifying themes in the data.




                                                                                    20
                                                                     APPENDIX II 




MANAGEMENT COMMENTS




                    MEMORANDUM


                                                             November 9, 2008


To: 	        Director, Office of Inspector General/Iraq, Gerard Custer

From: 	      USAID/Iraq Acting Director, Thomas R. Delaney

Subject: 	   Management Comments, Audit of USAID/Iraq’s Capacity-Building
             Program

References: Audit Report No. E-267-09-00X-P, dated September 28, 2008



Background

The draft OIG audit report of the Tatweer (capacity-building) program was
provided to the Mission on October 5, 2008. The audit sought to determine
whether USAID/Iraq’s National Capacity Development Program (the Program)
was achieving intended results and to determine the impact of those results. The
audit made four recommendations and provided findings on activities in: the
inclusion of outcome indicators in the performance management plan that
measure improvement of Iraqi ministries to deliver core services; a Capacity
Development Plan for the Ministry of Oil; valid survey results for outcome
measures; and improvement of the indicator for scholarships utilized.

Each of the findings has been examined to determine whether the Mission is in
agreement and what actions would be undertaken in response to the audit.
Through this report, the Mission will state whether it agrees with the
recommendations and will also discuss the actions taken or planned to be taken.
Where management actions in response to the audit are not yet resolved, the
Mission will provide target dates for their completion. The Mission recognizes the


                                                                               21
                                                                        APPENDIX II


value as a management tool of this OIG audit and is in agreement with all four of
the audit’s recommendations.



Recommendation No. 1: Mission Needs Outcome Indicators that Reflect the
Intended Results of the Program

Action taken: USAID/Iraq concurs with the recommendation, in as far as
indicators tracked by the Mission relate to the capacity of key ministries to
deliver core services. Below is a summary of the Mission’s analysis and actions
to be taken:

The performance target of improved service delivery, given the level of
resources, limits in time and limits in scope for this activity, is now recognized by
the Mission as being outside the manageable interests of the Tatweer Program.
The program is intended to improve the broad managerial capacity of the
ministries. It is not directly targeted on the delivery of specific services. Of
course, improved capacity is an input to the USG’s higher-level goal of improved
delivery of services, but Tatweer’s efforts are limited to building ministerial
capacity. Neither Tatweer nor any other USAID Program is in a position to
directly influence or measure service delivery in the ten Government of Iraq
(GOI) entities receiving assistance through the Program. Furthermore, some of
the entities supported by Tatweer do not provide services to the population,
though they play a critical role in planning and resource allocation within the GOI.

The USG’s interest in concrete improvements in the GOI’s service delivery are
being (or will be) addressed in several ways:

1) CJ-9 has already developed an indicator model to track service delivery,
province by province. That system has been in use for some time and is being
further refined for use by cross-sectoral GOI and USG bodies (e.g., Deputy
Prime Minister Essawi’s Services Committee).

2) We will revise the Tatweer Performance Management Plan (PMP) to clarify
that the highest level of results for which the Program is responsible relate to
National Capacity Development (NCD)-assisted ministries demonstrating
sustainable performance improvements in core administrative functions.

3) The Tatweer PMP will be revised to add an indicator on budget execution.
This will respond not only to the OIG report findings, but will also be consistent
with several prior General Accounting Office (GAO) reports on capacity
development that recommend measurement of budget execution as a proxy
indicator for capacity development at the national level.

4) USAID anticipates development of a new strategy in the coming year.



                                                                                     22
                                                                         APPENDIX II 



Tatweer’s indicators measure how we are increasing ministerial capacity to
deliver services, but do not measure service delivery. In the future, should
USAID initiate sector-specific activities that directly support service delivery
mechanisms, we would identify and track relevant, sector-specific indicators
measures.

Based on the above actions, and the current existence of the CJ-9 service
delivery indicator, the Mission requests a management decision on this
recommendation.


Recommendation 2: Ministry of Oil Needs a Capacity Development Plan (CDP)

Action taken: USAID/Iraq concurs with the recommendation and has taken the
following actions:

The Tatweer PMP set as a target that we would succeed in finalizing 8 Capacity
Development Plans. Although, all of the Tatweer ministry teams had it in their
work plan, we anticipated that not every ministry would be willing or able to
participate in such a process. It only makes sense to do a CDP where the
ministry wants it and participates. Tatweer met its target of 8 CDPs. The
situation in the Ministry of Oil, with the competing drafts of the petroleum
legislation, put the capacity development needs of the ministry in question
(depending on the outcome of the Petroleum Law). It was not clear whether the
law would succeed in making the ministry an enabling entity, providing guidance
to fully independent oil companies, requiring one set of skills, or that it would
continue to play a much more hands on operational role, requiring a different set
of skills. There was little agreement about this or anything else in the Ministry
during 2007. With the establishment of the new and expanded Tatweer energy
group, this group of advisors also felt that pushing for an across-the-board CDP
was not the best route to go. However, as a substitute, they did develop a
training plan that met with the Ministry’s approval. Furthermore, USAID will offer
to assist the Oil Ministry in developing a CDP, if the Ministry considers it a useful
exercise in the coming months.

It is also worth noting that the Organizational Self-Assessment and
Transformation Program (OSTP) under Tatweer is a new tool that allows
Ministries to self-diagnose their problems and develop their own strategies for
addressing issues found. Like the CDPs, the OSTP is facilitated by the Program.
The OSTP goes far beyond the CDPs in terms of self-diagnosis and counterpart
leadership in the solution. The Program is already working now with the Ministry
of Oil to deliver the OSTP to the North Oil Company – responsible for third of all
Iraqi oil production. The program is also carrying out the OSTP with SCOP – the
State Company for Oil Projects. Both these OSTP efforts are massive
undertakings. In our opinion, the OSTP now underway should go beyond any
requirement for a CDP in the Ministry of Oil. The OSTP should be complete by



                                                                                   23
                                                                      APPENDIX II 



January 2009.

Based on the above actions, the Mission requests a management decision on
this recommendation, with final action upon completion of the OSTP.


Recommendation 3: Better Methodology is Needed to Measure Training
Indicators

Action taken: USAID/Iraq concurs with the recommendation and has taken the
following actions:

We concur on the need to assure data confidence and disclosure of any
weaknesses in the data – an entirely reasonable request, especially in light of the
response rates found by the OIG. The Mission will amend the Program PMP to
provide for appropriate disclosure.

Based on the above action, the Mission requests a management decision on this
recommendation, with final action upon presentation of a revised Performance
Management Plan (PMP).


Recommendation 4: Better Performance Measures are Needed for the
Scholarship Program

Action taken: USAID/Iraq concurs with the recommendation and has taken the
following actions:

The current measure is the number of scholarships awarded, and the OIG notes
that some of those awarded scholarships may not actually go on the program.
The OIG suggests that this could potentially give a biased impression on impact,
but acknowledged the indicator was a correct measure of scholarships awarded.
In response, the Mission will amend the current PMP indicator to note that actual
participants may be less than the number awarded in a comments section, and
develop a new, additional indicator to reflect "number of scholarships utilized."

Based on the above actions, the Mission requests a management decision on
this recommendation, with final action upon presentation of a revised
Performance Management Plan (PMP).




                                                                                24
                                                                                APPENDIX III


Results Matrix for Year 1 Accomplishments
                         Result 1: Core public administration function skills trained
                                                  FY07      FY07 Target
 Output                   Outcome                 Target Actual     Met?               Comments
     1    Trainers trained                           150      188       Y Target met.
     2    Civil servants trained and certified     2000      2968       Y Target met.
                                                                             Target met
      3   Post-graduate scholarships awarded          75      180       Y See finding on page 15.
          Proportion of former trainees
                                                                             The information gathered to
          reporting that they make use of new
                                                                             report on these targets was
      4   training skills                           20%      33%      N/A insufficient to project the
          Proportion of former trainees who                              results to all of the former
          report that situation regarding their                          trainees. Therefore, actual
          operational or training area is                                results are unknown. Finding
      5   improving in their ministry/unit         10%    15%      N/A on page 13.
              Result 2: Ministries' organizational systems reformed and institutionalized
                                                 FY07    FY07 Target
 Output                   Outcome               Target Actual    Met?               Comments
          Number of civil servants trained in
      6   assessment methodologies                   40     80       Y Target met.
          Number of key ministries /
          organizations completing
          management improvement
          assessments and identifying targeted
      7   improvements                                4       8      Y Target met.
          Number of ministries / national
          organizations completing capacity
      8   development plans                           2         4       Y   Target met.
          Number of units or departments that
          implement changes in administrative
      9   systems or procedures                       2         7       Y   Target met.
          GOI evaluation unit with staff
          members trained in M&E concepts
     10   and methodologies                           1         0       N   Target not met.10
        Number of assessments of ministry
        capacity development conducted by
    11 GOI performance monitoring unit            2       0        N Target not met.10
      Result 3: Governments public administration training capacity revitalized and expanded
                                             FY07     FY07 Target
 Output               Outcome                Target Actual    Met?               Comments
    12 Regional training centers established      1       3        Y Target met.
          Training manuals in public
          management developed and adapted
     13   for training centers                        5       18        Y   Target met.
          Trainers trained for national and
     14   regional training centers                  10       94        Y   Target met.
          Training database developed at
     15   NCCMD                                       1         1       Y   Target met.

10
 The Program’s FY 2007 Annual Report noted that Targets 10 and 11 were not met because the
Government of Iraq had not yet established evaluation or performance monitoring units.


                                                                                          25
     IT equipment upgrades installed at
16   NCCMD                                  Yes      Yes     Y   Target met.
     Facilities improvements for national
17   and regional training centers          Yes    Partial   N   Target not met.
     Four training plans developed and
     implemented at national and regional
18   training centers                          2        3    Y   Target met.
     Number of trainees enrolled annually
19   at NCCMD                               1500    1375     N   Target not met.
     Number of trainees enrolled at
20   regional training centers               300    1415     Y   Target met.




                                                                                   26

U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave., NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
